Case No.

%D-U3
IN THE

SUPREME COURT OF THE UNITED STATES
LYLE MARK COULTAS - PETITIONER
SI® lib

vs.
CARROLL J. TICHENOR et. al. - RESPONDENTS
ON A WRIT FOR A CERTIORARI TO
THE UNITED STATES NINTH CIRCUIT OF APPEALS

FILED

PETITION FOR WRIT OF CERTIORARI

OCT 2 9 2020
SUPREEMELxyuRT;LnQK

LYLE MARK COULTAS
P.O. BOX 434
GASTON, OREGON 97119
503-431-1839

NO V - 5 2020

iwMcmm

»

QUESTIONS PRESENTED
1

Can the United States Ninth Circuit Court of Appeals disregard the United States District Court

Judge Marco Hernandez intentional fabrication of facts and law as he clearly did in his decision, and
did Judge Marco Hernandez fraud on the court by doing so?
2

Does the United States Supreme Court have the legal authority to void a circuit court conviction

that is obtained by intentional fraud on the court?
3

When a Citizen of the United States of America is the victim of fraud on the court by the

County Prosecutor and a State police crime lab detective, then the fraud is concealed by the County
Circuit Court the District Court and then the Ninth Circuit Court of Appeals, how does the United
States Supreme Court correct this fraud on the court?
4

Can a Circuit Court Judge or a District Court Judge fabricate facts that do not exist and base a

dismissal of that case based on the fabricated facts?

2

LIST OF PARTIES

All parties do not appear in the caption of the case on the cover page. A list of all parties to the
proceeding in the court whose judgment is the subject of this petition is as follows;
LYLE MARK COULTAS,
Petitioner,
v.
CARROLL J. TICHENOR, Individually and in his Official Capacity as a Yamhill County Prosecutor;
YAMHILL COUNTY DISTRICT ATTORNEY'S OFFICE;
STEVEN PAYNE, Individually and in his Official Capacity as a Oregon State Police Crime Laboratory
Detective;
OREGON STATE POLICE;

RELATED CASES
District Court Case Number, 3:ll-CV-45-AC
Ninth Circuit Case Number, 13-35402
District Court Case Number, 3:19-cv-00021-HZ
Ninth Circuit Case Number, 19-31542
Yamhill Circuit Court Case Number CR01-0164

3

TABLE OF CONTENTS
PAGE NUMBER
6

OPINIONS BELOW
JURISDICTION.

6

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED........ 7-8
STATEMENT OF THE CASE.

8

SUMMARY.

8

REASONS FOR GRANTING THE WRIT.

11-13

CONCLUSION

14-15

INDEX OF APPENDICES
PAGE NUMBER
6,10

APPENDIX A

Ninth Circuit Case Number, 19-31542
Petition For Rehearing Denied

APPENDIX B

District Court Case Number, 3:19-cv-00021-HZ

6,10

APPENDIX C

Motion for Reconsideration, District Court

9

APPENDEX D

District Court WARNING: CASE CLOSED

9

APPENDIX E

Portions of trial transcripts, portion

10

APPENDIX F

Index of State exhibits listing computer pornography

10

APPENDEX G

Post Conviction Relief Order

9

APPENDEX H

Steven Payne “No Pornography on Computer”
Post Conviction

11

4

v 'i

. y •-

¥::

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Heck v. Humphrey, 512 U.S. 477 (1994).................................... .................................

9,11

Spencer v. Kemna, 523 U.S. 1 (1998).........................................................................

11

Lawlor v. National Screen Service Corp., 349 U.S. 322 (1955).................................

7,9,12

Damey v. Dragon Prods. Co., LLC, 592 F. Supp. 2d 180 (D. Me. 2009)...................

12

Oregon House Bill 4145, ORS 166.255 (January 1, 2019)............................ ............

38

Hazel -Atlas Glass Co. v. Hartford-Empire Co., 322 U.S. 238, 64 S. Ct .997 (1943);

7,13

Valerio v. Boise Cascade Corp., 80 F.R.D. 626, 640 (N.D. Cal. 1978) (citing...........
C; Wright & A. Miller, Federal Practice and Procedure § 2870 at 250 (1973)).

7

People ex. re. Brzica v. Village of Lake Barrington, 644 N.E.2d 66 (Ill. App.2 Dist. 1994).

5

STATUTES AND RULES
No court has the lawful authority to validate a void order. U. S. v. Throckmorton, 98 U.S.
61,25 L.Ed 93 (1878); Hazel -Atlas Glass Co. v. Hartford-Empire Co., 322 U.S. 238, 64 S.Ct .997 ,■
(1943); Root refining Co. v. Universal Oil Products Co., 169 F.2d 514 (1948); In re Garcia, 109 B.R
335 (N.D. Illinois, 1989); Schwarz v. Schwarz, 27111.2d 140,188 N.E.2d 673 (1963), Dunham v.
Dunham, 162 Ill. 614 (1896); Skelly Oil v. Universal Oil Products Co. 338 Ill.App. 79, 87 (1st Dist.
1949).

#

#

#

, or order procured by fraud, can be attacked at any time, in any court,

either directly or collaterally, provided that party is properly before court, People ex. re. Brzica v.
Village of Lake Barrington, 644 N.E.2d 66 (Ill. App.2 Dist. 1994).
!

5

i

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
For a federal case:
The opinion of the United States court of appeals at “Appendix A” to the petition and is
unpublished.
The opinion of the United States district court appears at “Appendix B” to the petition and is
reported at

Unknown.

JURISDICTION
For a federal court:
The date on which the United States Court of Appeals decided my case was June 10,2020.
A timely petition for rehearing was denied by the United States Court of Appeals on the
following date, September 18,2020 and a copy of the order denying rehearing appears at
(Appendix A).
The jurisdiction of this court is invoked under 28 U.S.C. § 1254(1)

6

*
>

L

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Res judicata does not bar a suit, even if it involves the same course of wrongful conduct as
alleged earlier, so long as the suit alleges new facts or a worsening of the earlier conditions. Lawlor v.
National Screen Service Corp., 349 U.S. 322 (1955),
No court has the lawful authority to validate a void order. U. S. v. Throckmorton, 98 U.S.
61, 25 L.Ed 93 (1878); Hazel -Atlas Glass Co. v. Hartford-Empire Co., 322 U.S. 238, 64 S.Ct .997
(1943); Root refining Co. v. Universal Oil Products Co., 169 F.2d 514 (1948); In re Garcia, 109 B.R.
335 (N.D. Illinois, 1989); Schwarz v. Schwarz, 27 IU.2d 140,188 N.E.2d 673 (1963), Dunham v.
Dunham, 162 Ill. 614 (1896); Skelly Oil v. Universal Oil Products Co. 338 Ill.App. 79, 87 (IstDist.
1949).
The Supreme Court has characterized a fraud on the court as "a wrong against the institutions
set up to protect and safeguard the public, institutions in which fraud cannot be complacently tolerated

4

consistently with the good order of society." Hazel-Atlas Glass Co. v. Hartford-Empire Co., 322 U.S.
238 (1944). The Ninth Circuit interprets this somewhat more broadly than other circuits, such that ■$
"fraud upon the court includes both attempts to subvert the integrity of the court and fraud by an officer
of the court." In re Intermagnetics America, Inc., 926 F.2d 912,916 (9th Cir. 1991). The court should
base its analysis "not so much in terms of whether the alleged fraud prejudiced the opposing party, but
more in terms of whether the alleged fraud harms the integrity of the judicial process[.]" Id at 917
(citing Hazel-Atlas Glass, 322 U.S. at 246). Significantly, "[tjhere is no statute of limitations for fraud
on the court." Valerio v. Boise Cascade Corp., 80 F.R.D. 626,640 (N.D. Cal. 1978) (citing C. Wright &
A. Miller, Federal Practice and Procedure § 2870 at 250 (1973)).
The statute criminalizes a government official who "knowingly and willfully": (1) falsifies,
conceals, or covers up by any trick, scheme, or device a material fact; (2) makes any materially false,
fictitious, or fraudulent statement or representation; or (3) makes or uses any false writing or document
7

i.

■

*

knowing the same to contain any materially false, fictitious, or fraudulent statement or entry.
The State of Oregon created a new law, HB 4145, that took effect January 1,2019, ammending
ORS 166.255 and now prohibits Plaintiff from having a firearm. Since Appellant's release from Prison
Appellant has purchased several firearms and went through State and Federal background checks to
conduct these purchases. Now Because of the implementation of the Ammendment to ORS 166. 255
Appellant is now a criminal for posessing legally purchased firearms, approved by State, and Federal
agencies.
STATEMENT OF THE CASE
Petitioner filed a civil suit in the United States District Court, Portland Oregon. District Court
Judge Marco Hernandez fabricated every single fact in his decision to dismiss Petitioners case without
a hearing “APPENDEX B”. Petitioner filed a Motion to Reconsider listing every error Judge
Hernandez made “APPENDEX C”. Judge Hernandez corrected the Dollar amount but left the
significant portions uncorrected “APPENDEX D”. Judge Hernandez stated that Petitioner was seeking
one hundred million dollars when there was no mention of money at all. Judge Hernandez further ss .
stated that Petitioner was barred by res judicata and that Petitioner could have addressed his claims in a
previous complaint that was dismissed by united States District Court Magistrate Judge John Acosta
(Discussed in Summary). Petitioner Appealed to the Ninth Circuit Court listing the errors by Judge
Hernandez and addressed fraud on the court specifically.
SUMMARY
Petitioner filed a civil suit in the United States District Court, Portland, Oregon, with Judge
Marco Hernandez presiding, alleging, with clearly established and undisputed forensic evidence, that a
Yamhill County Prosecutor and an Oregon State Police Crime Lab Detective committed Fraud on the
Court and violated Petitioners Constitutional Rights and thereby causing Petitioner to be found guilty

8

and sentenced to 540 months in prison. Approximately 72 months later Petitioner won post conviction
relief by proving the Yamhill County Prosecutor, Cal Tichenor, and the Oregon State police Crime Lab
Detective, Steven Payne, concealed exculpatory evidence and falsified evidence “APPENDEX G”. In
the Court’s Order to Dismiss Petitioners case Judge Hernandez misrepresented every material fact in
his decision (Appendex B). Petitioner filed a Motion for Reconsideration pointing out every
misrepresentation by Judge Hernandez, (attached as Appendex C). Judge Hernandez main reason for
dismissing Petitioner's case is on Page 4 of (Appendex B), stating,“Second Plaintiff has not identified
new claims that could not have been raised in the prior litigation”. This statement by Judge Hernandez
is not truthful. On January 1,2019 Oregon created a new law, HB 4145, that took effect in which
Petitioner automatically became a criminal for owning firearms, firearms that Petitioner legally

£

purchased after his release from prison. Petitioner could not raise any argument about a violation to his

•w

constitutional rights that did not exist at that time. The Ninth Circuit Court Affirmed the Order of Judge

'fe

Hernandez without addressing any of Petitioners claims. (Appendix A)
Lawlor v. National Screen Service Corp., 349 U.S. 322 (1955), res judicata does not
bar a suit, even if it involves the same course of wrongful conduct as alleged earlier, #
so long as the suit alleges new facts or a worsening of the earlier conditions.
?
Judge Hernandez also made reference to the previous litigation from two years prior where Petitioners
civil action was dismissed because Portland, Oregon District Court Judge John Acosta dismissed
Petitioner's case by saying it violated Heck V. Humphrey. Petitioner was released from Prison after
winning Post Conviction relief by proving a Yamhill County, Oregon Prosecutor and an Oregon State
Police Crime lab Detective both concealed forensic evidence and falsified forensic evidence and used
that Falsified evidence to knowingly suborn and knowingly use perjury to obtain a conviction.
✓—

Yamhill County, Oregon, Prosecutor Cal Tichenor and Oregon State Police Crime lab Detective
Steven Payne produced a forensic report that falsely showed that Petitioner's computer contained
pornography and that the pornography was required to prove Petitioners guilt. Prosecutor Tichenor later
9

•

told the court that the jury found Petitioner guilty unanimously on all counts because of the computer
pornography. The prosecutor argued computer pornography on Petitioner's computer every hour of
every day of a week long trial (Appendix D), and produced evidence showing the pornography was on
Petitioners Computer “APPENDEX F”. After Petitioner's conviction Petitioner discovered that the
Defendants in this case, Tichenor and Payne, withheld a forensic computer report with picture locations
and filed a Pro-Se new trial motion demanding the production of that report. A forensic report with
picture locations would clearly prove if the pornography was on Petitioners computer or if it was on
some other storage device. Ticheror replied “APPENDEX I” by stating that all the pornography was
“ON PETITIONERS COMPUTER”. Tichenor was ordered to provide Petitioner with a copy of the
forensic report and sent back to prison without a Pro-Se new trial hearing. The forensic computer report
that Tichenor and payne withheld clearly proved there was no evidence of pornography to exist on
Petitioners computer. Tichenor and Payne committed fraud on the court and the District Court refuses

1

to allow Petitioner to bring this case to trial.
At Petitioner's post conviction it was forensically proven that Petitioners computer never
contained any evidence of pornography and that any sugestion of pornography on Petitioner's computer
was untruthful. It was also established that the Oregon State Crime lab took pornography from eight
floppy diskettes and mixed the pornography from those diskettes with the non-pomographic content
from Petitioners computer harddrives and then concealed the forensic locations that evidenced where
the pornographic pictures were produced from, computer or diskettes. At post conviction it was proven
that the pornography that was “only on diskettes”, was downloaded to the diskettes from a different
computer, and that those diskettes were not produced from, or ever inserted into Petitioner's computer.
In preparing for post conviction Petitioner's attorney, Frank Stoller, hired a forensic computer
specialist, Peter Constantine, to examine the computer evidence. With a court ordered subpeona Mr.
Constantine went to the Oregon State Police Crime lab and Detective Steven Payne produced Mirror
10

'i

images, digital duplicates, of all the computer evidence. Based on the findings of Peter Constantine
the Oregon Department of Justice ordered Steven Payne to re-examine all the computer evidence.
Steven Payne then stated by affidavit that there was no evidence of pornography to exist on Petitioners
computer harddrives 'APPENDEX H”. Petitioner won post conviction relief and a new trial was
ordered. On the day of the new trial Petitioner was offered a no-contest plea to two previously
uncharged misdemeanors, time served with “NO PAROLE, PROBATION or POST PRISON
SUPPERVISION”. At the advise of Petitioners attouney Petitioner took the plea because he was told
that the prosecutor refused to provide discovery and the prosecutor could misrepresent all the evidence
again and a jury could beleave the prosecutor, sending petitioner back to prison again. Petitioner was
released from custody and immediately attempted the return of all Petitioners personal property. That is
when Petitioner discovered that all Petitioners property, including the evidence used at trial, was

I

illegally distroyed by Oregon State Police Crime Lab Detective Steven Payne, within the previous six
months.
Because Petitioner was released from custody with no parole, probation or post prison
supervision and was not in custody, Petitioner was not permitted by law to file federal Habeas.
Petitioners only access to the court was through Title 42 Section §1983. Petitioner filed a civil action in
Portland, Oregon District Court and was assigned Judge John ACosta. The Oregon Department of
Justice, and Judge Acosta agreed and Ordered that Petitioner was bared by Heck v. Humphrey. Heck v.
Humphrey, 512 U.S. 477 (1994). Petitioner filed an appeal with the Ninth Circuit Court of Appeals and
the Court Affirmed the District Court Order to dismiss and did not ever mention the existence of Heck
v. Humphrey. See also (Spencer v. Kemna 523 U.S. 1)(1998).
Heck v. Humphrey does not apply because Petitioner was released from custody with no parole,
probation or post prison supervision, giving Petitioner “NO ACCESS” to federal habeas. Heck does not
apply where Petitioner never had access to federal habeas; However, that did not stop the District Court
11

Judge John Acosta from ordering Petitioners case dismissed and the Ninth Circuit Court from
affirming Judge Acosta's dismissal. And to this day Petitioner's fraud on the court claims have never
been addressed.
The yamhill County Circuit Court, the United States District Court and the Ninth Circuit Court
of Appeals have all refused to hear Plaintiffs fraud on the court claims.
REASONS FOR GRANTING THE PETITION
This case raises some questions about fraud on the court by prosecutors, police and judges. Can
the prosecutor fabricate his entire case against a defendant? Can the police fabricate evidence or
intentionally conceal exculpatory evidence? Can a Judge, Circuit and/or District Court, conceal the
misconduct of officers, prosecutors or other officers of the Court? Can the Ninth Circuit Court
completely ignore an Appeal when it cites the specific fraud on the court with undisputeable evidence?
What happens when a Plaintiff has clear and convincing evidence of fraud on the court by a District
Court Judge?
Fraud on the court makes void any orders from the court where the fraud occurred. District
Court Judge Marco Hernandez's blatant misrepresentations of every single fact and the law constitute
fraud on the court. The Ninth Circuit Court of Appeals completely ignored Judge Hernandez's “errors”
and affirmed without opinion and unpublished the Ninth Circuit Court's Order. The Ninth Circuit
Court's actions, and/or lack of actions, is inexcusable. These kinds of cases need to be corrected by the
United States Supreme Court and make these kinds of cases public so they do not happen again. No
District Court Judge or any Court of Aappeals Judge or Judges should ever conceal the illegal conduct
or misconduct by a lower Courts or Officers or Prosecutors.
RES JUDICATA / CLAIM PRECLUSION
Petitioners New Complaint raises claims that could not have been raised in the prior
litigation. On January 1,2019, Oregon House Bill 4145 took affect and ORS 166.255 was amended,
12

•r*v

now prohibiting Plaintiff from having a firearm because of the plea deal Petitioner was intimidated to
accept. The Plea deal was not to effect Petitioners right to own firearms. The new Oregon Law that
took effect, HB 4145, made it illegal for Petitioner to posess any firearm.These are new facts and/or are
worsening conditions.
As the Supreme Court explained more than 50 years ago in Lawlor v. National Screen
Service Corp., 349 U.S. 322 (1955), res judicata does not bar a suit, even if it involves the same
course of wrongful conduct as alleged earlier, so long as the suit alleges new facts or a worsening
of the earlier conditions. Lawlor retains its vitality to this day. See, e.g., Darney v. Dragon Prods. Co.,
LLC, 592 F. Supp. 2d 180 (D. Me. 2009) (applying Lawlor to deny application of res judicata where
second complaint included new factual allegations, even though there was “facial similarity” with the
first complaint).
FRAUD ON THE COURT
District Court Judge Marco Hernandez had every opportunity to correct his mistakes when
Petitioner filed his motion for reconsideration and he chose to ignor it. Judge Hernandez has committed
fraud on his own court and the Ninth Circuit Court is in error for ignoring this fact.
No court has the lawful authority to validate a void order. U. S. v. Throckmorton, 98 U.S.
61,25 L.Ed 93 (1878); Hazel -Atlas Glass Co. v. Hartford-Empire Co., 322 U.S. 238,64 S.Ct .997
(1943); Root refining Co. v. Universal Oil Products Co., 169 F.2d 514 (1948); In re Garcia, 109 B.R.
335 (N.D. Illinois, 1989); Schwarz v. Schwarz, 27 Ill.2d 140,188 N.E.2d 673 (1963), Dunham v.
Dunham, 162 Ill. 614 (1896); Skelly Oil v. Universal Oil Products Co. 338 Ill.App. 79, 87 (1st Dist.
1949).

13

*V

*

■ .

.. <■ 4

"'•'•V

i

In U.S. law, a "false statement" generally refers to the United States federal false statements
statute, contained in 18 U.S.C.§ 1001. Most commonly, prosecutors use this statute to reach cover-up
crimes such as perjury, false declarations, and obstruction of justice and government fraud cases.
The statute criminalizes a government official who "knowingly and willfully":
A,

falsifies, conceals, or covers up by any trick, scheme, or device, a material fact;

B, makes any materially false, fictitious, or fraudulent statement or representation; or,
C,

makes or uses any false writing or document knowing the same to contain any materially false,
fictitious, or fraudulent statement or entry.
Judge Hernandez intentionally misrepresentated the law and violated Petitioners Constitutional

rights when he Ordered that Petitioner was bared by res judicata.
Petitioner's Appeal to the Ninth Circuit Court of Appeals listed Judge Hernandez's errors in
detail, errors that constitute fraud on the court. The Ninth Circuit Court ignored the errors of Judge'
Hernandez and affermed Judge Hernandez's order to dismiss. The Ninth Circuit Court is in error for
affirming Judge Hernandez's order to dismiss petitioner's case.
CONCLUSION
Petitioner's Circuit Court conviction was completely based on fraud on the court. The Yamhill
County Circuit Court, the Oregon District Court and the Ninth Circuit Court have all ignored
Petitioner's fraud on the court claims. The Ninth Circuit Court was in Error for ignoring Petitioners
arguments in this case and in Petitioner's previous case.
The new complaint raises claims that could not have been raised in the prior Litigation.
On January 1,2019, Oregon House Bill 4145 took affect and ORS 166.255 was amended, and now
prohibiting Plaintiff from having firearms he legally purchassed after his release from prison and after
passing State and Federal backgroung checks.These are new facts and/or are worsening conditions.

14

.A

Judge Hernandez intentionally misrepresentated the law and violated Petitioners constitutional
rights when he ordered that Petitioner was bared by res judicata and lied about almost every fact in
Petitioners complaint.
The Ninth Circuit Court is in error for affirming the District Court's order to dismiss and
allowing any court order to stand where the Judge misrepresented all the facts of the case.
Because any conviction based on fraud on the court is void, the United States Supreme Court
should order the Ninth Circuit Court to examine Petitioner's claims of fraud on the court by the
defendants in this case and the conduct of District Court Judge Marco Hernandez.
It is also well within the authority of the United States Supreme Court to Void Petitioners two
misdemeanor Convictions because of the fraud on the court shown here-in.
Tichenor and Payne intentionally concealed forensic computer evidence, manufactured false
evidence to fabricate a case to the court and the jury . Tichenor used the fabricated computer evidence
at court by forcing a group of young girls to identify and testify that Petitioner forced them to view the
pornography on Petitioner's computer. Based on the computer evidence Petitioner was sentenced to 540
months in Oregons largest maximum security prison as a child molester. In short, Petitioner was
sentenced to prison as a child molester for what Tichenor and payne did in a courtroon full of people.
The District Court Judge committed fraud on the court for intentionally misrepresenting the
facts and the law in this case and the Ninth Circuit Court errored by not vacating the District Court
order to dismiss Petitioners case.

The petition for a writ of certiorari should be granted.
Respectfully submitted,
&

DATE : October 29,2020
15

A.
i-

